HHS/OIG-Audit--"Review of the Office of Community Services Grant to the Haitian Task Force, (A-12-93-00017)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Office of Community Services Grant to the Haitian Task
Force," (A-12-93-00017)
September 27, 1993
Complete
Text of Report is available in PDF format (1.98 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of the Administration
for Children and Families' (ACF) oversight of an Office of Community Services
(OCS) $472,500 discretionary grant awarded to the Haitian Task Force, Inc (HTF)
located in Miami, Florida. The report points out that the grantee failed to:
(1) purchase property needed to accomplish grant goals, (2) obtain community
support and accomplish a planned marketplace expansion, or (3) create business
opportunities and employment opportunities for low-income individuals as planned
in the approved grant. We found that ACF did not effectively manage the grant,
monitor grantee actions, and provide adequate oversight. The grantee's problems
were clearly indicated in information we found in ACF headquarters files and
should have been detected and caused ACF to devote increased oversight and technical
assistance to the project early in the grant period.